TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Implementing the Data Strategy Will Make
                    System and Application Development
                        More Efficient and Effective



                                        February 19, 2009

                              Reference Number: 2009-20-022




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                February 19, 2009


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                    (for) Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Implementing the Data Strategy Will Make
                                 System and Application Development More Efficient and Effective
                                 (Audit # 200820007)

 This report presents the results of our review of the development and implementation of the
 Internal Revenue Service (IRS) Data Strategy. The overall objective of this review was to
 determine whether the IRS Data Strategy includes adequate management and internal controls
 for its program and project plans. This review was part of our Fiscal Year 2008 Annual Audit
 Plan for reviews of the IRS Modernization Program.1

 Impact on the Taxpayer
 The IRS is developing a Data Strategy that includes a comprehensive plan for data collection,
 consolidation, storage, and distribution. A comprehensive Data Strategy is a key element in the
 IRS Modernization Program and is considered one of the four “pillars of modernization,” along
 with the Modernized Electronic Filing, Customer Account Data Engine, and Account
 Management Services projects. Successful implementation of these four “pillars” is essential to
 the support of all tax administration activities and is critical to the long-term success of the
 Modernization Program.

 Synopsis
 The Data Strategy is designed to provide standardized access to official IRS data sources;
 eliminate redundant, inconsistent, and outdated data; and provide guidance to identify and use

 1
     See Appendix VI for a glossary of terms.
                     Implementing the Data Strategy Will Make System and
                      Application Development More Efficient and Effective



data effectively and efficiently to gather and manage taxpayer account information. The
Enterprise Data Access and Data Strategy Implementation Programs are the major components
of the Data Strategy. These Programs are in development, and projects related to these Programs
have been initiated and, in some cases, completed. We reviewed the Integrated Production
Model and the Metadata Repository portions of the Data Strategy and found that these efforts are
generally meeting their objectives.
While progress is being made, management needs to take further           Although the IRS has
                                                                      previously pursued efforts
actions to develop and implement the goals of the Data Strategy.
                                                                       to achieve efficiency and
Since the Modernization Program began in 1999, the IRS has                consistency in data
initiated nine efforts to achieve consistency in data management       management, the current
when developing and managing information technology systems.            Data Strategy is the first
Although the IRS has previously pursued efforts to achieve               comprehensive effort
                                                                        since the Modernization
efficiency and consistency in data management, the current Data
                                                                            Program began.
Strategy is the first comprehensive effort since the Modernization
Program began.
Obtaining adequate funding for the current Data Strategy efforts has been a challenge for the
Data Strategy executives. The funding needs identified by these executives were communicated
to the potential users of the Data Strategy efforts. Although specific funding for the Data
Strategy was not designated in the IRS budget, the executives were able to obtain funding from
the respective organizations that anticipate using the capabilities. Without a commitment to fully
fund and implement the Data Strategy, the IRS will continue to have redundant, inconsistent, and
outdated data, making it difficult to provide its customers and stakeholders with appropriate
service and to efficiently and effectively enforce the nation’s tax laws.
The IRS has not mandated that all project development staffs coordinate data and application
needs with the Modernization and Information Technology Services (MITS) organization Data
Strategy development team. Defining and sharing the quantifiable benefits for using the Data
Strategy would help the various Modernization project teams understand the advantages and
necessity of employing the Data Strategy. However, the Data Strategy team stated that it does
not currently have cost details quantifying the benefits it expects to provide.
The IRS has developed an Information Technology Modernization Vision and Strategy plan to
help guide the Modernization Program, but it does not assign a priority for scheduling
development and implementation. As of August 2008, the MITS organization had not
established criteria to prioritize which IRS systems and data assets should be included in the
Data Strategy and a schedule of when the systems and assets will be incorporated into IRS
operations. This could lead to an ineffective and inefficient transition of the Data Strategy.




                                                                                                 2
                      Implementing the Data Strategy Will Make System and
                       Application Development More Efficient and Effective




Recommendations
To facilitate complete implementation of the Data Strategy, we recommended that the Chief
Technology Officer 1) work with IRS senior executives to consider the priority of the Data
Strategy effort in relation to the MITS organization’s budget and provide the necessary funding
so that it can be successfully implemented as an integral component of the Information
Technology Modernization Vision and Strategy, 2) quantify and communicate the benefits that
will be realized from implementation of the Data Strategy to promote the Data Strategy and
justify funding through budget requests, and 3) develop a method to determine the priority for
IRS systems and data assets to begin following the Data Strategy and when systems and data
assets can be retired due to the Data Strategy.

Response
The IRS agreed with our second and third recommendations but did not agree to implement our
first recommendation. The Data Strategy Implementation Program Office will quantify its
benefits, including those derived from eliminating redundant storage, using the Modernization
Vision and Strategy costing model developed by the Enterprise Data Management Office.
Further, the Data Strategy Implementation Division within the Applications Development
Division will analyze IRS systems and data assets to develop a plan for determining a
prioritization methodology for systems and assets to be incorporated into the Data Strategy.
While the IRS agreed with the spirit and intent of our first recommendation to consider the
priority of the Data Strategy effort, IRS management does not plan to implement the
recommendation because they cannot agree to fund any one project without considering each
year's annual budget. Notwithstanding, it is the IRS’ intent over the long term to move to a
data-centric organization. Management’s complete response to the draft report is included as
Appendix VII.

Office of Audit Comment
The Data Strategy is cited by the IRS as one of the “four pillars of modernization.” We
understand IRS management’s position that it cannot agree to fund any one project without
considering the available budget, but we continue to believe the IRS should place a high enough
priority on the Data Strategy that the project is considered for a relevant portion of available
funding. Without providing the resources to secure this portion of the foundation, the
Modernization effort is weakened, potentially leading the Data Strategy to a partially completed
goal.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or

                                                                                                   3
                     Implementing the Data Strategy Will Make System and
                      Application Development More Efficient and Effective



Margaret E. Begg, Acting Assistant Inspector General for Audit (Security and Information
Technology Services), at (202) 622-8510.




                                                                                           4
                             Implementing the Data Strategy Will Make System and
                              Application Development More Efficient and Effective




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Data Strategy Is Progressing Toward Information Technology
          Modernization Vision and Strategy Goals....................................................Page 3
          Sustaining the Data Strategy Effort Will Allow for More Efficient
          and Effective System Development and Operations ....................................Page 5
                    Recommendation 1:..........................................................Page 6

          Quantifying the Benefits of the Data Strategy Will Strengthen the
          Commitment for Implementation .................................................................Page 7
                    Recommendation 2:..........................................................Page 8

          A Method to Include Systems and Data Assets in the Data Strategy
          Should Be Developed ...................................................................................Page 8
                    Recommendation 3:......................................................Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Integrated Production Model Releases ................................Page 15
          Appendix V – Internal Revenue Service Data Consistency and
          Efficiency Efforts..........................................................................................Page 16
          Appendix VI – Glossary of Terms................................................................Page 19
          Appendix VII – Management’s Response to the Draft Report.....................Page 23
       Implementing the Data Strategy Will Make System and
        Application Development More Efficient and Effective




                  Abbreviations

IRS         Internal Revenue Service
MITS        Modernization and Information Technology Services
                            Implementing the Data Strategy Will Make System and
                             Application Development More Efficient and Effective




                                               Background

The Internal Revenue Service (IRS) is developing a Data Strategy that includes a comprehensive
plan for data collection, consolidation, storage, and distribution. A comprehensive Data Strategy
is a key element in the IRS Modernization Program1 and is considered one of the four “pillars of
modernization,” along with three projects at the heart of the Modernization Program–the
Modernized Electronic Filing, Customer Account Data Engine, and Account Management
Services projects. Successful implementation of these four “pillars” is essential to the support of
all tax administration activities and is critical to the long-term success of the Modernization
Program.
The IRS Information Technology Modernization Vision and Strategy includes the goals for the
Data Strategy:
      •    Improve data quality to enable IRS management to make data-based decisions.
      •    Consolidate redundant data repositories.
      •    Expose and enforce common data standards to a wider audience.
      •    Reduce point-to-point data transfers to enhance processing efficiency between systems
           and applications.
The Data Strategy is designed to provide standardized access to official IRS data sources;
eliminate redundant, inconsistent, and outdated data; and provide guidance to identify and use
data effectively and efficiently to gather and manage taxpayer account information. All of the
IRS compliance activities rely on tax return and account data to assist with workload selection.
By improving the quality and accessibility of the data, the IRS will be better equipped to enforce
the nation’s tax laws and instill confidence in its ability to make informed decisions.
The IRS Modernization and Information Technology Services (MITS) organization is
responsible for developing and implementing the Data Strategy. Two offices within the MITS
organization are responsible for the Data Strategy. The Enterprise Data Management office’s
mission is to more easily and efficiently organize, identify, share, reuse, and correlate data that
enable the IRS business operating divisions to use information and maximize its value to the
IRS. The Data Strategy Implementation office’s mission is to support the creation of an
enterprise strategy for data management, storage, and access and to develop and implement the
data repositories for both near-term and long-term business goals. In addition, the Small



1
    See Appendix VI for a glossary of terms.
                                                                                              Page 1
                     Implementing the Data Strategy Will Make System and
                      Application Development More Efficient and Effective



Business/Self-Employed Division represents the needs of all
                                                                        The Enterprise Data
IRS business operating divisions in implementing the Data            Access and Data Strategy
Strategy.                                                            Implementation Programs
                                                                     are the major components
The Data Strategy consists of two major programs–the                    of the Data Strategy.
Enterprise Data Access Program and the Data Strategy
Implementation Program.
   •   The Enterprise Data Access Program consists of an Extensible Markup Language
       Relational Database and the Integrated Production Model. The Extensible Markup
       Language Relational Database became operational in Fiscal Year 2006 and provides the
       IRS Tax Exempt and Government Entities Division with electronically filed business
       returns in a relational database that captures and associates data using common attributes.
       The Integrated Production Model will provide a consolidated database of tax return and
       account data in a single repository for compliance data used in the case selection
       processes. Through analyzing Integrated Production Model data, the IRS hopes to
       implement efforts that enhance tax compliance efforts to decrease the tax gap.
   •   The Data Strategy Implementation Program will be responsible for implementing the
       data strategies that define the Enterprise Data Architecture, define the current and future
       data requirements, reduce and/or eliminate data duplication within the enterprise, provide
       solutions for information access and sharing, support interoperability among information
       systems, and support IRS business goals. These activities include developing the
       Enterprise Return Retrieval project and the Metadata Repository to support individual
       business units’ analytical and research needs in the processing of transaction data.
This review was performed at the MITS organization facilities in New Carrollton, Maryland,
during the period May through November 2008. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                           Page 2
                      Implementing the Data Strategy Will Make System and
                       Application Development More Efficient and Effective




                                Results of Review

The Data Strategy Is Progressing Toward Information Technology
Modernization Vision and Strategy Goals
The MITS organization’s plans for the Data Strategy address the goals of the Information
Technology Modernization Vision and Strategy, and the MITS organization is making progress
in achieving those goals. The Enterprise Data Access and Data Strategy Implementation
Programs are in development, and projects related to these Programs have been initiated and, in
some cases, completed. Our reviews of the Integrated Production Model and the Metadata
Repository show that these efforts are generally meeting their objectives.
While progress is being made, management needs to take further actions to develop and
implement the goals of the Data Strategy. Challenges facing MITS organization executives
include gaining support for implementing the Data Strategy throughout the IRS, obtaining
adequate funding to execute the related Data Strategy programs, and sustaining the support to
achieve the goals of the Information Technology Modernization Vision and Strategy.

The Integrated Production Model is being developed to provide a consolidated
database of tax return and account data
The IRS is currently developing the Integrated Production Model to provide all IRS business
operating divisions with a consolidated database of consistent tax return and taxpayer account
data that will allow the IRS to retire duplicative and costly data
extracts. The Integrated Production Model will provide access
                                                                      The Integrated Production
to core data that can be used for case identification, selection,     Model will provide all IRS
prioritization, and assignment.                                          business operating
                                                                          divisions with a
The Integrated Production Model involves developing storage         consolidated database of
for and integrated access to data from various IRS files systems    consistent tax return and
or data sources. The Integrated Production Model Releases 1.0      taxpayer account data that
and 1.1 were implemented in September 2007 and August 2008,         will allow the IRS to retire
respectively. Releases 2 and 3 were both officially cancelled in  duplicative   and costly data
                                                                              extracts.
June 2008 after the IRS determined that they were no longer
needed because of hardware advancements and application
efficiencies. The Integrated Production Model project team is
currently developing Release 4.0, which is scheduled for implementation in December 2008.
Releases 5 and 6 are scheduled to add remaining data sources in December 2009 and


                                                                                            Page 3
                     Implementing the Data Strategy Will Make System and
                      Application Development More Efficient and Effective



December 2010, respectively. Appendix IV presents the status and capabilities of the Integrated
Production Model releases.
Reviews of Integrated Production Model Releases 1.0, 1.1, and 4.0 documents showed that the
project team successfully implemented the following project management processes and
activities. The Integrated Production Model team adequately:
   •   Justified the need for the project and reported planned funding.
   •   Managed its requirements.
   •   Managed its risks.
   •   Planned configuration management activities.
   •   Planned project quality and performance tracking and reporting activities.
Because the Integrated Production Model adequately followed project management guidance
established by the Enterprise Life Cycle, work products and deliverables have met or are on
schedule to meet project goals.

The Metadata Repository is standardizing the format and interpretation of data
A description of data (e.g., name, format, source) is termed metadata. Metadata help users
locate, manage, understand, and use data by describing what data are available, in which system
they are located, what they mean, where they came from, how they were processed, and how
they are used. IRS metadata are present in both the modernized and current processing
environment and systems.
The MITS organization is building an enterprise-wide Metadata Repository that will be the
official source for information about IRS data. The Repository is using a consistent vocabulary
to categorize data and ensure a consistent meaning of the data throughout the IRS. The
Repository is initially being populated with tax return and taxpayer account data from the
Integrated Production Model. The metadata collected from the various Integrated Production
Model releases will contain a majority of the metadata needed by the IRS.
The Metadata Repository currently resides on a Microsoft Access database. A pilot is underway
to test the feasibility of using an IBM Information Server as a data management tool to house the
Metadata Repository and replace the Microsoft Access database. The MITS organization has
built a comprehensive framework into the IBM Information Server to include enterprise data
descriptions and data naming standards. In addition, the core metadata from the Integrated
Production Model Releases 1.0 and 1.1 have been added to both the Access and IBM Metadata
Repositories. These Repositories will be used concurrently until the plans to implement the
IBM Information Server repository become official.



                                                                                          Page 4
                     Implementing the Data Strategy Will Make System and
                      Application Development More Efficient and Effective



In addition to testing the IBM Information Server for housing and management of the Metadata
Repository, the IRS is developing the Repository policy and guidance documentation. The
MITS organization will develop and issue a Metadata Requirements checklist to help ensure
consistency in the use of data by project development teams. This checklist, as well as the
Metadata Repository guidance, will be included in a Data Implementation Guide that provides
direction to ensure that current and future Modernization projects adhere to the IRS Data
Strategy.

Sustaining the Data Strategy Effort Will Allow for More Efficient and
Effective System Development and Operations
The IRS has recognized the significance of a comprehensive Data Strategy to achieving its
Information Technology Modernization Vision and Strategy and has previously initiated work on
several projects to achieve an enterprise Data Strategy. Since the Modernization Program began
in 1999, the IRS has initiated nine efforts to achieve consistency in data management when
developing and managing information technology systems. Although the IRS has previously
pursued efforts to achieve efficiency and consistency in data management, the current Data
Strategy is the first comprehensive effort since the Modernization Program began. Appendix V
includes a list of the IRS’ efforts to achieve data consistency and efficiency.
Obtaining adequate funding for the current Data Strategy efforts
has been a challenge for the Data Strategy executives. The             Obtaining adequate
funding needs identified by these executives were                    funding for the current
communicated to the potential users of the Data Strategy efforts.   Data Strategy efforts has
Although specific funding was not designated in the IRS budget      been a challenge for the
                                                                    Data Strategy executives.
to develop and deliver the immediate efforts of the Data
Strategy, the executives were able to obtain funding from the
respective organizations that anticipate using the capabilities.
Cost estimates to complete the two major programs in the Data Strategy are significant:
   •   The Enterprise Data Access Program business case shows more than $8 million will be
       needed for Budget Year 2009 and an additional $8 million will be needed for Budget
       Year 2010. The IRS plans to complete the Enterprise Data Access Program in Budget
       Year 2011 with an estimated total cost of $50 million.
   •   The Data Strategy Implementation Program business case shows more than $9 million
       planned for Budget Year 2009 and more than $12 million planned for Budget Year 2010.
       The Data Strategy Implementation Program has an estimated cost of $130 million to
       complete over the next 7 years. However, the IRS withdrew the Data Strategy
       Implementation Program business case, which was prepared to support the entire
       Program. The IRS revised its approach for this Program and decided instead to prepare
       business cases for the individual projects. Currently, the IRS is drafting a business case
                                                                                          Page 5
                      Implementing the Data Strategy Will Make System and
                       Application Development More Efficient and Effective



       for the Enterprise Return Retrieval project, one of the projects within the Data Strategy
       Implementation Program, for Budget Year 2010. Funding for this Program is awaiting
       approval.
The goals of the Data Strategy are to provide standardized access mechanisms to authoritative
data sources needed for processing tax accounts and IRS compliance activities that rely on these
data; eliminate redundant, inconsistent, and outdated data; and provide data design guidance to
support the variety of Modernization projects being developed by the IRS. Without a
commitment to fully fund and implement the Data Strategy, the IRS will continue to have
redundant, inconsistent, and outdated data, making it difficult to provide IRS customers and
stakeholders with appropriate service and to efficiently and effectively enforce the nation’s tax
laws.

Recommendation
Recommendation 1: The Chief Technology Officer should work with IRS senior executives
to consider the priority of the Data Strategy effort in relation to the MITS organization’s budget
and provide the necessary funding so that the Data Strategy can be successfully implemented as
an integral component of the Information Technology Modernization Vision and Strategy. The
funding method needs to support the development, implementation, and maintenance of the Data
Strategy as it facilitates and supports IRS data access.
       Management’s Response: The IRS agreed with the spirit and intent of the
       recommendation to consider the priority of the Data Strategy effort in relation to the
       Modernization and Information Technology Services organization budget, but stated that
       it did not agree to implement the recommendation to fund any one project without
       considering each year’s annual budget. The actions taken to prioritize all information
       technology demand with IRS senior leadership limits the Chief Technology Officer’s
       ability to direct resources to specific development projects. Priorities for the limited
       information technology resources are driven through a service-wide priority process.
       Notwithstanding, it is the IRS’ intent over the long term to move to a data-centric
       organization.
       Office of Audit Comment: The Data Strategy is cited by the IRS as one of the “four
       pillars of modernization.” We understand IRS management’s position that it cannot
       agree to fund any one project without considering the available budget, but we continue
       to believe the IRS should place a high enough priority on the Data Strategy that the
       project is considered for a relevant portion of available funding. Without providing the
       resources to secure this portion of the foundation, the Modernization effort is weakened,
       potentially leading the Data Strategy to a partially completed goal.




                                                                                            Page 6
                          Implementing the Data Strategy Will Make System and
                           Application Development More Efficient and Effective



Quantifying the Benefits of the Data Strategy Will Strengthen the
Commitment for Implementation
The Data Strategy team in the MITS organization has communicated the Data Strategy and the
various components to all levels across the IRS. Efforts include meetings with the Deputy
Commissioners; Business Systems Planning representatives; Chief Financial Officer, directors,
and staff; Data and Other Common Services Executive Steering Committee managers; and
Applications Development Division directors. These executives also provide an annual briefing
to all of the business operating divisions’ Commissioners and Deputy Commissioners.
The IRS has not mandated that all project development staffs
coordinate data and application needs with the MITS                             The Data Strategy team has
organization Data Strategy development team. Rather, the                       not attempted to quantify the
Data Strategy team has generally taken a service approach by                   benefits of the Data Strategy
providing new projects with data and application development                      because detailed data
input upon request. The complementary approach by the                          maintenance costs were not
                                                                                     readily available.
Data Strategy team to release standardized universal data to
drive project development is a goal that is envisioned but not
yet practiced.
Defining and sharing the quantifiable benefits of using the Data Strategy would help the various
Modernization project teams understand the advantages and necessity of employing the Data
Strategy. However, the Data Strategy team stated that it does not currently have cost details
quantifying the benefits it expects to provide. For example, estimates of unnecessary costs to
maintain duplicate tax account information in the various IRS databases have not been
quantified.
The overall benefits of implementing the Data Strategy and eliminating duplicative, inconsistent,
and outdated data include reducing:
    y    Development costs for each project to get its own data.
    y    Time to deploy the applications and their data.
    y    Maintenance costs to maintain duplicate data and technologies.
    y    Burden to secure and protect duplicate data.
The Clinger-Cohen Act of 19962 directs executive agency heads to identify quantifiable
measurements to determine the net system development investment benefits and risks.
Additional guidance in the Control Objectives for Information and related Technology provides

2
 Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
44 U.S.C., 49 U.S.C., 50 U.S.C.).
                                                                                                             Page 7
                      Implementing the Data Strategy Will Make System and
                       Application Development More Efficient and Effective



that the information technology function and business stakeholders are responsible for ensuring
that optimal value is realized from project and service portfolios. Also, stakeholders should be
consulted to identify and control the total costs and benefits within the context of the information
technology strategic and tactical plans. This process fosters partnership between information
technology and business stakeholders; enables the effective and efficient use of information
technology resources; and provides transparency and accountability into the total cost of
ownership, the realization of business benefits, and the return on investment of information
technology-enabled investments.
Without determining the quantifiable benefits of reducing or eliminating duplicative data within
the IRS, the MITS organization cannot appropriately promote and justify the commitment to
implement and follow the Data Strategy.

Recommendation
Recommendation 2: The Chief Technology Officer should quantify and communicate the
benefits that will be realized from implementing the Data Strategy, to be in a better position to
promote the Data Strategy and justify and receive funding through budget requests and MITS
organization governance directives.
       Management’s Response: The IRS agreed with this recommendation. The Data
       Strategy Implementation Program Office will quantify its benefits, including those
       derived from eliminating redundant storage, using the Modernization Vision and Strategy
       costing model developed by the Enterprise Data Management Office. This process will
       only address new Modernization Vision and Strategy projects, as existing and
       non-Modernization Vision and Strategy projects are not subject to the costing model. For
       Modernization Vision and Strategy projects that already exist, the Data Strategy
       Implementation Program Office will quantify and extract the benefits from its budget.

A Method to Include Systems and Data Assets in the Data Strategy
Should Be Developed
                                                               By establishing criteria, the MITS
The IRS has developed an Information Technology                   organization can effectively
Modernization Vision and Strategy, a 5-year plan that is       prioritize which IRS systems and
updated annually and includes descriptions of projects        data assets should be included in
planned for development, but it does not assign a               the Data Strategy and when to
priority for scheduling development and                       retire systems and data assets no
                                                             longer needed because of the Data
implementation. As of August 2008, the MITS                                 Strategy.
organization had not established criteria to prioritize
which IRS systems and data assets should be included in
the Data Strategy and a schedule of when the systems
and assets will be incorporated into IRS operations. In addition, it had not established criteria to

                                                                                              Page 8
                      Implementing the Data Strategy Will Make System and
                       Application Development More Efficient and Effective



prioritize when systems and data assets can be retired when they are no longer needed because of
the Data Strategy.
When the Data Strategy was initiated, seven projects were identified for inclusion in the
Integrated Production Model portfolio. The MITS organization had determined that these
7 projects used almost 90 percent of the types of taxpayer account data managed throughout the
IRS.
Since including the initial seven projects, the Data Strategy team has used an approach of letting
the project needs drive the Data Strategy. Also, managers wanted their projects to become part
of the Integrated Production Model portfolio as the source of their data because the projects did
not have funding to develop specific data sources. Criteria to prioritize and accept projects into
the Integrated Production Model portfolio have not yet been developed.
The Data Strategy effort is currently in the process of streamlining data access as part of the
Integrated Production Model. The Data Strategy team advised us that when this initial effort is
completed, it will have a better understanding of what is involved in adding projects and will be
able to develop a method to advance the Data Strategy.
The Clinger-Cohen Act directs executive agency heads to apply criteria when considering
whether to undertake a particular investment in information systems, including the net,
risk-adjusted return on investment and specific quantitative and qualitative criteria for comparing
and prioritizing alternative information systems investment projects. The Control Objectives for
Information and related Technology provides that a framework needs to be established and
maintained to manage information technology-enabled investment programs and to encompass
cost, benefits, prioritization within budget, a formal budgeting process, and management against
the budget.
The Department of Defense Net Centric Data Strategy recognized the need to prioritize the
ordering of systems and data assets as part of its Data Strategy. The prioritized list of data assets
provides a focus for near-term efforts to create and advertise metadata and ensures that the data
are available in shared space.
Without a method to prioritize IRS systems and data assets to become part of the Data Strategy,
the MITS organization might not sufficiently plan the implementation of the Data Strategy. This
could lead to an ineffective and inefficient transition of the Data Strategy. In addition, without a
plan for retiring IRS current production environment systems and data assets, the IRS cannot
fully realize the benefits of the Data Strategy. These benefits could be shown as a potential cost
savings that would further support obtaining funding for the Data Strategy.




                                                                                              Page 9
                     Implementing the Data Strategy Will Make System and
                      Application Development More Efficient and Effective



Recommendation
Recommendation 3: The Chief Technology Officer should develop a method to determine
the priority for IRS systems and data assets to begin following the Data Strategy and when
systems and data assets can be retired due to the Data Strategy.
       Management’s Response: The IRS agreed with this recommendation. The Data
       Strategy Implementation Division within the Applications Development Division will
       analyze IRS systems and data assets to develop a plan for determining a prioritization
       methodology for these systems and assets to be incorporated into the Data Strategy.




                                                                                         Page 10
                            Implementing the Data Strategy Will Make System and
                             Application Development More Efficient and Effective



                                                                                    Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS Data Strategy includes
adequate management and internal controls for its program and project plans. To accomplish our
objective, we reviewed the two programs that drive the IRS’ Data Strategy–the Enterprise Data
Access Program and the Data Strategy Implementation Program. In performing our review, we
interviewed personnel in the MITS organization Enterprise Services and Applications
Development Divisions and in the Small Business/Self-Employed Division working on the Data
Strategy. Specifically, we:
I.         Determined whether development and implementation of the Data Strategy included
           adequate planning and coordination.
           A. Determined whether the Data Strategy being developed and implemented is meeting
              the organizational goals and objectives.
               1. Reviewed the Information Technology Modernization Vision and Strategy1 to
                  determine the intent of the completed Data Strategy.
               2. Reviewed the Exhibit 300 documents for the Enterprise Data Access Program and
                  Data Strategy Implementation Program to determine the planned Data Strategy.
           B. Determined whether best practices or lessons learned from other IRS projects,
              government agencies, or private corporations were used to help in the development of
              the IRS Data Strategy.
           C. Determined whether the IRS Data Strategy effort included participation and
              commitment from the MITS organization and the business operating divisions to
              achieve an integrated Data Strategy.
II.        Determined the adequacy of efforts to develop, share, and maintain the Metadata
           Repository by reviewing the Metadata Project Plan to determine whether it included
           adequate details for development of the Metadata Repository.




1
    See Appendix VI for a glossary of terms.
                                                                                          Page 11
                     Implementing the Data Strategy Will Make System and
                      Application Development More Efficient and Effective



III.   Determined whether the Integrated Production Model team followed established project
       management processes and activities to help ensure successful project development,
       deployment, and implementation. We determined whether the Integrated Production
       Model had adequate:
       A. Justification.
       B. Funding.
       C. Identification and management of risks.
       D. Identification and management of requirements.
       E. Configuration management.
       F. Project quality and performance tracking and reporting activities.




                                                                                     Page 12
                     Implementing the Data Strategy Will Make System and
                      Application Development More Efficient and Effective



                                                                               Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Security and Information
Technology Services)
Scott A. Macfarlane, Director
Edward A. Neuwirth, Audit Manager
Beverly K. Tamanaha, Senior Auditor
Louis V. Zullo, Senior Auditor
Charlene L. Elliston, Auditor




                                                                                       Page 13
                   Implementing the Data Strategy Will Make System and
                    Application Development More Efficient and Effective



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief, Agency-Wide Shared Services OS:A
Chief Information Officer OS:CIO
Commissioner, Small Business/Self-Employed Division SE:S
Associate Chief Information Officer, Applications Development OS:CIO:AD
Associate Chief Information Officer, Enterprise Services OS:CIO:ES
Director, Procurement OS:A:P
Director, Stakeholder Management OS:CIO:SM
Deputy Associate Chief Information Officer, Applications Development OS:CIO:AD
Deputy Associate Chief Information Officer, Business Integration OS:CIO:ES:BI
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:ES:SI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Associate Chief Information Officer, Applications Development OS:CIO:AD
       Director, Procurement OS:A:P
       Director, Program Oversight OS:CIO:SM:PO




                                                                                 Page 14
                     Implementing the Data Strategy Will Make System and
                      Application Development More Efficient and Effective



                                                                                Appendix IV

              Integrated Production Model Releases

•   Release 1 was implemented in September 2007 and contained data from the:
    − Business Master File database and repository containing Business Master File entities,
      tax modules, entity transactions, tax return transactions, and tax return statuses.
    − Business Returns Transaction File, which is a repository of the transcribed portion of the
      business returns.
    − Combined Annual Wage Reporting file, which is a repository of wage-related documents
      received from the Social Security Administration.
•   Release 1.1 loaded data from several files and sources in August 2008. These included
    Business Master File delinquency records, Employee Plans Master File delinquency records,
    Audit Information Management System data, zip code data, and aggregated Information
    Returns Master File data.
•   Release 2.0 was cancelled by the IRS and the business customers; the Data and Other
    Common Services Executive Steering Committee approved this decision. The IRS no longer
    needs this Release because it is moving all project servers into the MITS organization’s
    operations, which resolved the need to control the servers.
•   Release 3.0 was cancelled by the IRS, and the Tax Exempt and Government Entities
    Business Systems Planning Officer and the Data and Other Common Services Executive
    Steering Committee approved this decision. The intent of this Release was to prevent the
    Tax Exempt and Government Entities Division from having to create a duplicate database.
•   Release 4.0 will add at least two new data sources, including the Individual Master File and
    the Individual Returns Transaction File. User requirements for this Release have been
    completed, and the Release is in the logical/physical design stage. Deployment is scheduled
    for December 2008.
•   Release 5.0 will provide access to additional Individual Master File and Individual Returns
    Transaction File sources. Deployment is scheduled for December 2009.
•   Release 6.0 will provide access to additional Business Master File and Business Returns
    Transaction File sources. Deployment is scheduled for December 2010.




                                                                                         Page 15
                            Implementing the Data Strategy Will Make System and
                             Application Development More Efficient and Effective



                                                                                              Appendix V

        Internal Revenue Service Data Consistency and
                      Efficiency Efforts

The following are the data consistency and efficiency efforts begun by the IRS since the
Modernization Program1 began in 1999 through Fiscal Year 2008.

     Fiscal       Effort Name                    Effort                        Cost            Current
      Year                                     Description                                     Status of
     Started                                                                                    Effort
     2001        Enterprise         An enterprise-wide data warehouse       $96.2 million   Was
                 Data               of detailed data and data marts                         transformed into
                 Warehouse          designed to meet predictable                            and renamed
                                    strategic and tactical information                      the Integrated
                                    needs.                                                  Production
                                                                                            Model in Fiscal
                                                                                            Year 2007. See
                                                                                            Integrated
                                                                                            Production
                                                                                            Model
                                                                                            description
                                                                                            below.
     2003        Modernized         Software providing a single              $3 million     Proof-of-concept
                 Data Access        integrated approach for accessing                       prototype was
                                    current processing environment data                     completed in
                                    throughout the organization, with key                   June 2003.
                                    data infrastructure components that
                                    all modernization projects could
                                    share. This software would
                                    eliminate the need for projects to
                                    develop their own databases and
                                    contend with current processing
                                    environment complexities.




1
    See Appendix VI for a glossary of terms.
                                                                                                      Page 16
                   Implementing the Data Strategy Will Make System and
                    Application Development More Efficient and Effective




Fiscal    Effort Name                    Effort                        Cost           Current
 Year                                  Description                                    Status of
Started                                                                                Effort
2003      Treasury          We recommended that the IRS              $35,000       Corrective
          Inspector         ensure the development of job and                      action
          General for       file naming standards to facilitate                    completed
          Tax               project development and limit                          October 1, 2003.
          Administration    additional costs on future Customer
          Report,           Account Data Engine releases and
          Adhering to       other IRS modernization projects.
          Established       The Chief Information Officer agreed
          Development       with the recommendation to develop
          Guidelines Will   naming standards. Key naming
          Help to Ensure    standards were planned to be
          the Customer      published and available for use by
          Account Data      the current processing and
          Engine Meets      modernization environments by
          Expectations      August 1, 2003.
          (Reference
          Number
          2003-20-089,
          dated
          March 2003)
2005      Submission        An initiative to identify business       Unknown       Completed
          and               process redesign opportunities for                     December 14,
          Settlement        the submission and settlement                          2005.
          Harvesting        aspects of electronic tax return
          Project           processing, allocate high-level
                            business rules sets to modernized
                            systems such as the Customer
                            Account Data Engine, and identify
                            architectural alternatives such as
                            potential reuse of the current
                            processing environment.
2005      Modernized        A project to allow returns              $1.2 Million   Completed its
          e-File            electronically filed by large                          project
          Integration       corporations and tax-exempt                            capabilities in
                            organizations to be easily accessible                  Fiscal
                            to IRS staff and to fulfill the IRS                    Year 2006.
                            Commissioner’s commitment to use                       Planned
                            these electronic data in compliance                    capabilities to
                            operations.                                            view, print, and
                                                                                   analyze
                                                                                   electronically
                                                                                   filed tax returns
                                                                                   not delivered.


                                                                                               Page 17
                       Implementing the Data Strategy Will Make System and
                        Application Development More Efficient and Effective




 Fiscal      Effort Name                     Effort                        Cost           Current
  Year                                     Description                                    Status of
 Started                                                                                   Effort
 2006        Extensible        An initiative that provides customers    $9.2 million   Became
             Markup            in the Tax Exempt and Government                        operational in
             Language          Entities Division with the                              Fiscal
             Relational        electronically filed business returns                   Year 2006.
             Database          in a relational format.
 2006        Enterprise        A project to provide authorized IRS      $3.6 million   Transformed
             Return            employees with the ability to view                      from the
             Retrieval         and print images of electronically                      Modernized
                               filed returns from their workstations                   e-File
                               and to provide the Extensible                           Integration in
                               Markup Language raw data for                            Fiscal
                               decision analytics and                                  Year 2006. In
                               case-processing activities.                             process.
 2007        Integrated        A consolidated database of tax          $17.1 million   Transformed
             Production        return and account data.                                from the
             Model                                                                     Enterprise Data
                                                                                       Warehouse in
                                                                                       Fiscal Year
                                                                                       2007. In
                                                                                       process.
 2009        Metadata          Being developed to classify and           $358,000      In process.
             Repository        categorize IRS metadata
                               independent of workflow and
                               organizational boundaries. It will be
                               the authoritative source for
                               information about data.

Source: MITS organization Enterprise Data Management and Data Strategy Implementation offices.




                                                                                                  Page 18
                       Implementing the Data Strategy Will Make System and
                        Application Development More Efficient and Effective



                                                                                Appendix VI

                               Glossary of Terms

            Term                                          Definition
Account Management Services A project to modernize the ability to collect, view, retrieve,
                            and manage taxpayer information.
Audit Information               A computer system used by the Small Business/
Management System               Self-Employed Division Examination Operations function
                                and others to control returns, input assessments/adjustments
                                to the Master File, and provide management reports.
Business Master File            The IRS database that consists of Federal tax-related
                                transactions and accounts for businesses. These include
                                employment taxes, income taxes on businesses, and excise
                                taxes.
Control Objectives for          A set of best practices (framework) for information
Information and related         technology management created by the Information Systems
Technology                      Audit and Control Association and the Information
                                Technology Governance Institute in 1992. It provides
                                managers, auditors, and information technology users with a
                                set of generally accepted measures, indicators, processes, and
                                best practices to assist them in maximizing the benefits
                                derived through the use of information technology and in
                                developing appropriate information technology governance
                                and control in a company.
Customer Account Data           Consists of databases and related applications that will replace
Engine                          the IRS’ official repository of taxpayer information (the
                                Master File) and provide the foundation for managing
                                taxpayer accounts to achieve the IRS modernization vision.
Data Mart                       Contains customized and summarized data from the data
                                warehouse and is tailored to support the specific analytical
                                requirements of a business unit or function.
Employee Plans Master File      A file consisting of various types of pension, profit sharing,
                                and tax-sheltered annuity plans.


                                                                                         Page 19
                     Implementing the Data Strategy Will Make System and
                      Application Development More Efficient and Effective




              Term                                        Definition
Enterprise Data Architecture    Addresses the key principles that affect the way that projects
                                create and use data. It includes: data storage and
                                management; data modeling, categorization, and relevant
                                subject areas; data access standards and strategies;
                                authoritative data definitions and guidelines; data resources
                                and technologies, including metadata and extensible markup
                                language; and data stewardship.
Enterprise Data Strategy        A strategy to develop integrated data solutions and retire
                                duplicate systems while maintaining the business
                                functionality.
Enterprise Return Retrieval     A project intended to provide the abilities to view, print, and
Project                         analyze electronically filed tax returns.
Executive Steering Committee    Oversees investments, including validating major investment
                                business requirements and ensuring that enabling technologies
                                are defined, developed, and implemented.
Exhibit 300                     A Capital Asset Plan and business case required by the Office
                                of Management and Budget.
Extensible Markup Language      The universal format for structured documents and data on the
                                Internet.
Individual Master File          The IRS database that maintains transactions or records of
                                individual tax accounts.
Individual Returns Transaction Contains fields currently transcribed from U.S. Individual
File                           Income Tax Return (Form 1040 and Form 1040A) or Income
                               Tax Return for Single and Joint Filers With No Dependents
                               (Form 1040EZ), and their accompanying forms and
                               schedules. The information is obtained from the tax return as
                               originally filed by the taxpayer, but can reflect math error
                               corrections. The information is not updated to reflect
                               amended returns or subsequent adjustments.
Information Returns Master      A master file of current tax year information returns and
File                            access to 6 prior years.




                                                                                         Page 20
                      Implementing the Data Strategy Will Make System and
                       Application Development More Efficient and Effective




              Term                                       Definition
Information Technology         Establishes a 5-year plan that drives investment decisions;
Modernization Vision and       addresses the priorities around modernizing front-line tax
Strategy                       administration and supporting technical capabilities; and
                               leverages existing systems (where possible) and new
                               development (where necessary) to optimize capacity, manage
                               program costs, and deliver business value on a more
                               incremental and frequent basis.
Infrastructure                 The fundamental structure of a system or organization. It is
                               the basic, fundamental architecture of any system (electronic,
                               mechanical, social, political, etc.) that determines how it
                               functions and how flexible it is to meet future requirements.
Integrated Production Model    A consolidated source of core taxpayer data (e.g., tax account,
                               tax return, and third-party data) and business application data
                               to be used by a wide range of business applications to support
                               case identification, selection, prioritization, and delivery.
Metadata Repository            The authoritative source for information about data. It serves
                               as a centralized hub for accessing metadata across the
                               enterprise, providing a consistent and complete view.
Modernization Program          A program, which began in 1999, that is a complex effort to
                               modernize the IRS technology and related business processes.
Modernized e-File              A project that develops the modernized, web-based platform
                               for filing approximately 330 IRS forms electronically,
                               beginning with the U.S. Corporation Income Tax Return
                               (Form 1120), U.S. Income Tax Return for an
                               S Corporation (Form 1120S), and Return of Organization
                               Exempt From Income Tax (Form 990). The project serves to
                               streamline filing processes and reduce the costs associated
                               with a paper-based process.
Net Centric                    The realization of a networked environment.
Relational Database            A database that captures data using common attributes found
                               in the data set.
Release                        A specific edition of software.




                                                                                      Page 21
                 Implementing the Data Strategy Will Make System and
                  Application Development More Efficient and Effective




          Term                                     Definition
Tax Gap                   The estimated difference between the amount of tax that
                          taxpayers should pay and the amount that is paid voluntarily
                          and on time.




                                                                                Page 22
      Implementing the Data Strategy Will Make System and
       Application Development More Efficient and Effective



                                                   Appendix VII

Management’s Response to the Draft Report




                                                          Page 23
Implementing the Data Strategy Will Make System and
 Application Development More Efficient and Effective




                                                    Page 24
Implementing the Data Strategy Will Make System and
 Application Development More Efficient and Effective




                                                    Page 25
